TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Trends in Compliance Activities
                              Through Fiscal Year 2006



                                          March 27, 2007

                              Reference Number: 2007-30-056




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            March 27, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Compliance Activities Through Fiscal
                             Year 2006 (Audit # 200730016)

 This report presents the results of our review of statistical information that reflects activities of
 the Collection and Examination functions. The overall objective of this review was to provide
 statistical information requested by the Internal Revenue Service (IRS) Oversight Board and
 trend analyses of that information.

 Impact on the Taxpayer
 During this annual review, we analyze information from the IRS’ management information
 system reports to determine the trends and changes in the major areas of compliance. Overall,
 many compliance activities increased and results improved during Fiscal Year (FY) 2006.
 Continued effort to improve compliance is important to maintaining the integrity of the voluntary
 tax compliance system.

 Synopsis
 Since FY 2000, the IRS has been reversing many of the downward trends in compliance
 activities that had occurred in prior years. In FY 2006, many of these activities continued to
 increase as Collection and Examination function field staffing increased slightly. Both the
 Collection and Examination functions hired enforcement personnel during FY 2006, but there
 may be little hiring during FY 2007 due to budget constraints.
                      Trends in Compliance Activities Through Fiscal Year 2006




In FY 2006, the level of compliance activities and the results obtained in many Collection
function areas showed a continued increase. The use of liens1 and levies (collection enforcement
tools) was greater, surpassing the FY 1997 levels. The use of seizures also increased, but it is
unlikely that the use of seizures will return to the pre-1998 levels in the foreseeable future.
Enforcement revenue collected continued to increase (to $48.7 billion), but the total dollar
amount of uncollected liabilities also increased to $271 billion. However, the gap between new
delinquent accounts and account closures narrowed slightly during FY 2006.
The Collection function collected 5.5 percent more than in FY 2005, but the number of taxpayers
(779,272) and the amount owed ($27.2 billion) on accounts in the Queue were each a 10-year
high. One reason for the increase in the Queue this year is a rise in the number of compliance
assessments.2 While the Queue is a source of work for Collection Field function employees, a
significant amount may never be worked. In addition, from FYs 2001 through 2006, the IRS
removed almost 6.8 million accounts with balance-due amounts totaling more than $28 billion
from Collection function inventory; these accounts may never be worked. In September 2006,
the IRS started assigning balance-due cases that otherwise would not have been worked to
private collection agencies. As of January 18, 2007, the IRS had received $12.6 million on cases
assigned to the collection agencies. However, continued use of private collection agencies is
uncertain because some members of Congress want the IRS to discontinue their use.
During FY 2006, the overall percentage of tax returns examined increased by just over 4 percent,
and the number of field Examination function personnel increased by just over 9 percent.
However, the overall percentage of tax returns examined is still 27 percent lower than it was in
FY 1997.
Overall, the number of individual tax returns examined increased during FY 2006.
Correspondence examinations accounted for 87 percent of the examinations of individuals with
incomes under $100,000 and 62 percent of those with incomes of $100,000 and over.3
Correspondence examinations are usually not as comprehensive as face-to-face examinations,
and the impact on compliance may be limited. In a report issued last year,4 we noted that
high-income taxpayers did not always respond to correspondence examinations. About
86 percent of the amount assessed on these no-response cases was either reversed or not
collected after almost 2 years from the date of the assessment. In addition, the dollar yield per
hour decreased for individual income tax return examinations conducted by revenue agents but
increased for those conducted by tax compliance officers.

1
  See Appendix IV for a glossary of terms used in this report.
2
  Compliance assessments are those generated by the Examination function, the Automated Underreporter program,
the Substitute for Return program, and the 6020(b) program.
3
  This information was computed using the Audit Technique Codes that identify how the employees are conducting
the audits. This number differs from some publicized reports that use the organizational code.
4
  While Examinations of High-Income Taxpayers Have Increased, the Impact on Compliance May Be Limited
(Reference Number 2006-30-105, dated July 25, 2006).
                                                                                                             2
                      Trends in Compliance Activities Through Fiscal Year 2006




In FY 2006, the number of corporate tax returns examined decreased 1 percent, after increasing
71 percent in FY 2005. However, the number of returns examined has still decreased 59 percent
since FY 1997. The total number of corporate tax returns examined decreased from
1 out of 37 returns filed in FY 1997 to 1 out of 80 returns filed in FY 2006. The number of tax
returns examined for larger corporations (those with assets of $10 million and over) decreased
just over 2 percent. Yield indicators for examinations of corporate tax returns improved again.
There were increases in the amount of tax adjustments and in hours spent examining those
returns for the year. The net effect was an increase in the dollar yield per hour.
Some of the positive changes noted in this report might be attributed to management emphasis
on the Collection and Examination programs. Over the last few years, the Small Business/
Self-Employed Division has implemented reengineering and organizational changes that could
have had a positive impact on enforcement efforts. In addition, both functions continue to work
toward improved workload selection methods.
Despite actions the IRS has taken to improve its enforcement efforts, the Government
Accountability Office regarded enforcement of tax laws (collection of unpaid taxes and Earned
Income Tax Credit noncompliance) as 1 of the 26 high-risk areas in the Federal Government in
its January 2007 update.5 However, as our report points out, the IRS has moved toward
reversing many of the enforcement declines in both the Collection and Examination functions.
Continued effort to improve compliance is important to maintaining the integrity of the voluntary
tax compliance system. According to a tax gap strategy document dated September 2006, the tax
gap for Tax Year 2001 is $345 billion.6 The strategy document provides a broad base on which
to build future efforts to address the tax gap but depends on future budgets to provide detailed
strategy elements.

Recommendation
We made no recommendations in this report. However, key IRS management officials reviewed
the report prior to issuance and agreed with the facts and conclusions.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-5894.




5
 HIGH-RISK SERIES – An Update (GAO-07-310, dated January 2007).
6
 A Comprehensive Strategy for Reducing the Tax Gap (Department of the Treasury, Office of Tax Policy, dated
September 26, 2006).
                                                                                                              3
                          Trends in Compliance Activities Through Fiscal Year 2006




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Overall, Compliance Activities Increased and Results Improved ................Page 2
          Collection Function Compliance Activities Increased and
          Results Improved ..........................................................................................Page 3
          Examination Function Compliance Activities Increased and
          Results Improved ..........................................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Detailed Charts of Statistical Information.............................Page 18
          Appendix VI – Prior Treasury Inspector General for Tax
          Administration Compliance Trends Reports ................................................Page 47
        Trends in Compliance Activities Through Fiscal Year 2006




                     Abbreviations

ACS            Automated Collection System
CFf            Collection Field function
FY             Fiscal Year
IRS            Internal Revenue Service
TDA            Taxpayer Delinquent Account
TDI            Taxpayer Delinquency Investigation
TIGTA          Treasury Inspector General for Tax Administration
                   Trends in Compliance Activities Through Fiscal Year 2006




                                     Background

We initiated this review of nationwide compliance statistics for examination and collection
activities at the request of the Internal Revenue Service (IRS) Oversight Board. Our data
analyses were performed in the Treasury Inspector General for Tax Administration (TIGTA)
Chicago, Illinois, office during the period December 2006 through March 2007 using national
reports from Collection and Examination function management information system reports. The
audit was conducted in accordance with Government Auditing Standards. However, because we
relied on information accumulated by the IRS in established reports, we did not verify the
accuracy of the data.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A Glossary of Terms is included in
Appendix IV. Detailed charts and tables referred to in the body of this report are included in
Appendix V. Most of the calculations throughout the report and Appendix V are affected by
rounding. All initial calculations were performed using the actual numbers rather than the
rounded numbers that appear in the report.
Much of the data included in this report update prior TIGTA audit reports on compliance trends.
See Appendix VI for a list of those reports.




                                                                                         Page 1
                         Trends in Compliance Activities Through Fiscal Year 2006




                                        Results of Review

Overall, many compliance activities increased and results improved during Fiscal
Year (FY) 2006. Since FY 2000, the IRS has been reversing numerous downward trends
in compliance activities that had occurred in prior years in both the Collection and Examination
functions. In FY 2006, many of these activities continued to increase, while others fell slightly
from the prior year.
Although the IRS has started to reverse many of the downward trends in compliance activities,
the Collection and Examination functions enforcement staffing level is not significantly higher
than the 10-year low experienced in FY 2003. The combined Collection and Examination
functions enforcement personnel1 declined from approximately 20,600 at the beginning of
FY 1997 to 15,500 at the end of FY 2006, a 25 percent decrease. After decreasing 1 percent
during FY 2005, staffing increased 7 percent this year. The budget was a 7 percent increase over
the FY 2005 budget for tax law enforcement, and the Collection and Examination functions hired
enforcement personnel during the year. However, Congress never passed an actual budget for
FY 2007, and spending will be limited to FY 2006 levels with some required increases.
Therefore, most enforcement hiring will be curtailed for the fiscal year. The President’s Budget
Proposal for FY 2008 includes an increase of almost 6 percent for Collection and Examination
function enforcement.

Overall, Compliance Activities Increased and Results Improved
For some time, the total number of tax returns filed and the total dollars the IRS received (gross
collections) increased with the growing economy. In the past 10 years, the total number of tax
returns filed grew 12 percent, from 158 million in Calendar Year 1996 to 177 million in
Calendar Year 2005. From FYs 1997 to 2001, IRS gross collections grew from $1.62 trillion to
$2.13 trillion but then fell a total of 8 percent during FYs 2002 and 2003, to $1.95 trillion. These
were the first decreases in total revenue since FY 1983. However, since FY 2003, gross
collections have increased 29 percent and reached a new record high of $2.52 trillion this year.2
After remaining relatively constant for FYs 1999 through 2002, the amount of enforcement
revenue collected increased 43 percent in the last 4 years. During FY 2006, enforcement




1
    Collection and Examination function staff located in field offices, excluding management and overhead staff.
2
    See Appendix V, Figure 1.


                                                                                                              Page 2
                      Trends in Compliance Activities Through Fiscal Year 2006




revenue collected increased 3 percent to $48.7 billion.3 This amount (not adjusted for inflation)
is 31 percent higher than the FY 1997 level.4
As our report points out, the IRS has moved toward reversing many of the enforcement declines
in both the Collection and Examination functions. However, despite work the IRS is doing to
improve its enforcement efforts, the Government Accountability Office regarded enforcement of
tax laws (collection of unpaid taxes and Earned Income Tax Credit noncompliance) as 1 of the
26 high-risk areas in the Federal Government in its January 2007 update.5 The Government
Accountability Office states that improvements in compliance with tax laws will require efforts
on the part of the IRS and Congress.
Continued effort to improve compliance is important to maintaining the integrity of the voluntary
tax compliance system. According to a tax gap strategy document dated September 2006, the tax
gap for Tax Year 2001 is $345 billion, representing a compliance rate of about 84 percent.6 The
purpose of the strategy document was to provide a broad base on which to build future efforts to
address the tax gap. Additional detailed strategy elements to address the tax gap are, in part,
contingent upon the budget process for FYs 2008 and beyond. One of the seven components
included in the strategy is to be better able to prevent, detect, and remedy noncompliance.
In a prior audit report on tax gap projections, we concluded that the IRS does not have sufficient
information to completely and accurately measure the overall tax gap.7 While the IRS is
conducting research to obtain a better and updated measure of the tax gap, it still faces large
challenges to completely and accurately measure the tax gap. We believe improvements can be
made, but sufficient resources need to be provided.

Collection Function Compliance Activities Increased and Results
Improved
The Collection Field function (CFf) revenue officer personnel assigned delinquent cases
increased 5 percent in FY 2006; there were 3,876 field revenue officers as of the end of the fiscal
year.8 However, since the start of FY 1997, revenue officer staffing is down 30 percent.
In addition to the increase in staffing during FY 2006, the Small Business/Self-Employed
Division implemented an organizational change during FY 2005 and continues with efforts to
improve business processes. Also, workload selection methods continue to be studied with the

3
  See Appendix V, Figure 3.
4
  See Appendix V, Figure 2.
5
  HIGH-RISK SERIES – An Update (GAO-07-310, dated January 2007).
6
  A Comprehensive Strategy for Reducing the Tax Gap (Department of the Treasury, Office of Tax Policy, dated
September 26, 2006).
7
  Some Concerns Remain About the Overall Confidence That Can Be Placed in Internal Revenue Service Tax Gap
Projections (Reference Number 2006-50-077, dated April 2006).
8
  See Appendix V, Figure 5.
                                                                                                      Page 3
                       Trends in Compliance Activities Through Fiscal Year 2006




goal of identifying the best cases to be worked. These efforts could have had some positive
impacts in the Collection function activities that continued to show improvement during
FY 2006. However, the results of some activities were not positive.

Many Collection function operations showed improvement
The following activities showed positive results for the Collection function during FY 2006.
     •   Dollars collected on Taxpayer Delinquent Accounts (TDA) by the Automated Collection
         System (ACS) and the CFf employees totaled almost $6.2 billion, an increase of
         5.5 percent from FY 2005.9 This year’s amount is up 71 percent from the 10-year low
         that occurred in FY 2000.
     •   The number of TDAs closed (excluding shelved accounts) and the number closed by full
         payment increased 6.7 percent and 8.7 percent, respectively, from FY 2005.10 This year’s
         volumes are the highest since FY 1997.
     •   The number of Taxpayer Delinquency Investigations (TDI) closed by the ACS and the
         CFf because delinquent tax returns were received by the IRS increased 5 percent from
         FY 2005. There has been a 71 percent increase since a 10-year low that occurred in
         FY 2002.
     •   As shown in Figure 1, the use
                                                   Figure 1: Use of Collection Enforcement Tools
         of liens (a collection
         enforcement tool) has                                       Liens          Levies        Seizures
                                                  FY 1997             543,613       3,659,417        10,090
         increased 275 percent since              FY 1998             382,755       2,503,409         2,259
         the low experienced in                   FY 1999             167,867         504,403            161
         FY 1999. The number of                   FY 2000             287,517         219,778             74
                                                  FY 2001             426,165         674,080            234
         liens issued by the CFf and the          FY 2002             482,509       1,283,742            296
         ACS increased in FY 2006 by              FY 2003             544,316       1,680,844            399
                                                  FY 2004             534,392       2,029,613            440
         24 percent and 16 percent,               FY 2005             522,887       2,743,577            512
         respectively.11 The ACS                  FY 2006             629,813       3,742,276            590
                                           Source: Small Business/Self-Employed Division Collection Planning
         volume represented a 10-year      and Analysis, Collection National Reports, and IRS Data Book.
         high, and the CFf volume
         approached the 10-year high of FY 1997.




9
  See Appendix V, Figure 9.
10
   See Appendix V, Figures 14 and 15.
11
   See Appendix V, Figure 16.
                                                                                                               Page 4
                      Trends in Compliance Activities Through Fiscal Year 2006




         In last year’s trends report,12 we noted there should be an increase in the number of liens
         filed on accounts with large balance-due amounts based on procedural changes being
         made by the Collection function.13
         As also shown in Figure 1, the uses of levies and seizures (additional collection
         enforcement tools) increased substantially from lows experienced in FY 2000. Levies
         increased 1,603 percent, and seizures increased 697 percent.14 The number of levies
         surpassed the FY 1997 volume in FY 2006. However, the number of seizures made was
         still substantially lower than the number made before FY 1998. It is unlikely the IRS’
         use of seizures will return to the pre-1998 volumes in the foreseeable future.

Some Collection function operations showed mixed results
Some indicators were not positive for Collection function compliance activity during FY 2006.
     •   The amount of gross accounts receivable increased almost 5 percent (to $271 billion)
         after decreasing just over 9 percent during FY 2005.15 This occurred even though there
         were increases in gross collections and enforcement revenue collected.
     •   The average amount collected per CFf staff year on TDAs decreased almost 4 percent
         from FY 2005. However, the average amount increased almost 105 percent to $554,909,
         from a low of $271,110 in FY 1999.16
     •   There were more TDA receipts than closures; however, the gap between TDA receipts
         and TDA closures narrowed slightly during the fiscal year after widening during
         FY 2005.17 The gap had decreased by almost 4 percent to 1,174,824 accounts as of the
         end of the year. Except for FY 2004, this gap is still smaller than at the end of any fiscal
         year since FY 1998.
An inventory of unassigned collection cases is maintained in the Queue. After decreasing
slightly during FY 2005, the number of taxpayers with unpaid accounts in the Queue and the
amount owed on these accounts increased to 10-year highs during FY 2006.18 The number of
taxpayer accounts increased just over 28 percent to 779,272. At the same time, the amount owed
increased just over 34 percent to $27.2 billion. One reason for the increase in the Queue this



12
   Trends in Compliance Activities Through Fiscal Year 2005 (Reference Number 2006-30-055, dated March 2006).
13
   High-Risk Work Is Selected From the Unassigned Delinquent Account Inventory, but Some Unassigned Accounts
Need Management’s Attention (Reference Number 2006-30-030, dated February 2006).
14
   See Appendix V, Figures 17 and 18.
15
   See Appendix V, Figure 3.
16
   See Appendix V, Figure 8.
17
   See Appendix V, Figure 12.
18
   See Appendix V, Figure 13.
                                                                                                      Page 5
                      Trends in Compliance Activities Through Fiscal Year 2006




year is a rise in the number of compliance assessments.19 In addition, the number of taxpayers
with unfiled tax returns increased just over 15 percent to 824,936, but there was a small (just
over 8 percent) decrease in the number of these accounts that were shelved or surveyed (removed
from inventory) during the year.20 Although many of the cases in the Queue may be assigned to
be worked, a significant amount may never be worked.
As noted above, the Queue inventory increased during FY 2006. However, those inventory
figures do not include the millions of tax periods for unpaid accounts and unfiled return
investigations shelved or surveyed (removed) from Collection function inventory during the last
few years. From FYs 2001 through 2006, the IRS removed almost 6.8 million TDAs21 (with
balance-due amounts totaling more than $28 billion) and almost 15.2 million TDI tax periods
from Collection function inventory. However, the pace for removal of both TDAs and TDIs has
slowed each year since FY 2004. These cases were removed from Collection function inventory
because they were potentially less productive than other available inventory and may never be
worked.
The Collection function is unable to work all of the existing accounts in the Queue with current
staffing, and, as stated above, the number of TDA receipts is outpacing closures. If changes do
not occur, a significant number of cases will continue to not be worked. This reinforces the need
for additional resources to work the cases. As previously noted, the Collection function hired
additional staff during FY 2006, but it is unlikely that hiring will take place during FY 2007. In
addition, in September 2006, the IRS started assigning balance-due cases that otherwise would
not have been worked to private collection agencies. As of January 18, 2007, the IRS had
received $12.6 million on cases assigned to the collection agencies. Continued use of private
collection agencies is uncertain because some members of Congress want the IRS to discontinue
their use.

Examination Function Compliance Activities Increased and Results
Improved
Overall, the number of field Examination function personnel that conduct examinations of tax
returns increased just over 9 percent between FYs 2005 and 2006. The number of revenue
agents increased to 10,513, while the number of tax compliance officers (formerly referred to as
tax auditors) increased to 1,145 as of the end of the fiscal year.22 However, there has been an




19
   Compliance assessments are those generated by the Examination function, the Automated Underreporter program,
the Substitute for Return program, and the 6020(b) program. See Appendix V, Figures 47 and 48.
20
   See Appendix V, Figures 10 and 11.
21
   See Appendix V, Figure 11.
22
   See Appendix V, Figure 4.
                                                                                                       Page 6
                      Trends in Compliance Activities Through Fiscal Year 2006




almost 22 percent decrease in the number of examiners in field offices23 since the start of
FY 1997.
In addition to the increased staff during FY 2006, over the last few years the Small
Business/Self-Employed Division has implemented some reengineering and organizational
changes that could have had a positive impact within the Examination function in some of the
areas noted below. In addition, the Examination function continues to study methods that will
result in the identification of tax returns for examination that contain greater potential for
noncompliance.
Compared to FY 2005, the percentage of tax returns examined increased for most types of tax
returns during FY 2006. At the same time, examination yield per hour (the amount of tax
adjustments on tax returns divided by the number of hours spent examining those returns) also
increased for corporate and other types of tax returns, but revenue agent results for individual tax
returns decreased.24

The number of tax returns examined increased, but many examinations were
conducted via correspondence
When analyzing examination coverage rates, it is important to recognize differences in the types
of contacts that are counted in Examination function statistics. Examinations range from an IRS
notice asking for clarification of a single tax return item that appears to be incorrect
(correspondence examination) to a full face-to-face interview and review of the taxpayer’s
records. Face-to-face examinations are generally more comprehensive and time consuming for
the IRS and the taxpayers, and they typically result in higher dollar adjustments to the tax
amounts. Thus, caution should be used when combining statistics from the various Examination
function programs into overall examination rates. During FY 2006, almost 70 percent of all
examinations were conducted via correspondence.25
In addition, the IRS uses several computer-matching and automated error-checking routines in
the Computing Centers to check the accuracy of tax returns. The running of these routines often
results in adjustments to tax liabilities; however, these adjustments are not included in the
traditional “audit rates” and are not generally reported separately as enforcement efforts.
The overall percentage of tax returns examined (including face-to-face and correspondence
examinations) increased by just over 4 percent26 from FY 2005 and has increased 84 percent


23
   Examiners in field offices include revenue agents, tax compliance officers, tax examiners, and revenue officer
examiners.
24
   See Appendix V, Figures 20 through 23.
25
   This information was computed using the Audit Technique Codes that identify how the employees are conducting
the audits. This number differs from some publicized reports that use the organizational code.
26
   The IRS has traditionally calculated the percentage of examination coverage by dividing the number of returns
examined in the current fiscal year by the number of returns filed in the preceding calendar year.
                                                                                                         Page 7
                                       Trends in Compliance Activities Through Fiscal Year 2006




since FY 2000. However, the rate is still 27 percent lower than it was in FY 1997. The largest
increase in the examination rate from FY 2000 was for individual tax returns. Examinations of
other types of tax returns did not increase as significantly or decreased.
Examination function staffing increased during FY 2006. However, hiring during FY 2007 was
curtailed due to budget considerations. This may reverse again in FY 2008, as the President’s
Proposed Budget provides for an increase in Examination function enforcement.
Figure 2 compares the change in field Examination function staffing to the change in
examinations for all types of tax returns by field employees from the beginning of FY 1997
                                                                      through FY 2006. The chart line for
        Figure 2: Percentage Change in Field Examiners and            the number of field examiners does
                               Examinations
                                                                      not start at zero because the number
           Total Field Exam iners           Total Field Exam inations of examiners conducting
      10%

       0%
                                                                      examinations during FY 1997
      -10%
                                                                      decreased by almost 7 percent during
      -20%                                                            the year.
      -30%

      -40%                                                   A continued effort to increase
      -50%                                                   examination coverage is important to
      -60%
                                                             maintaining the effectiveness of the
      -70%

      -80%
                                                             voluntary tax compliance system. In
         FY 1997   FY 1998   FY 1999   FY 2000   FY 2001
                                                             2006, the study of taxpayer attitudes
                                                           FY 2002   FY 2003   FY 2004   FY 2005   FY 2006

   Source: IRS Data Book and Examination Table 37.
                                                             about cheating on taxes showed a
decline, after showing improvements each year since 2003. In 2006, 12 percent of taxpayers
believed it was acceptable to cheat on their tax returns. This is up from 10 percent in 2005.27
Also, fear of examination is a major factor in influencing taxpayers to report taxes honestly. In
2002, 54 percent of taxpayers surveyed cited fear of examination as a factor that influenced their
voluntary compliance. This increased to 62 percent in 2005 then decreased to 61 percent in
2006.
The following paragraphs summarize examination coverage for various types of tax returns.
       •     Individual Income Tax Examinations – Overall, the number of all types of individual
             income tax returns examined decreased from FY 1997 through FY 2000. However, the
             downward trend was reversed in FY 2001, when the number of examinations in most
             categories increased from the prior years. During FY 2000, only 617,765 (1 in 202)
             individual income tax returns were examined. Since then the number examined has
             continuously increased; 1,283,950 (1 in 103) were examined in FY 2006, with 82 percent
             of those being done by correspondence.28


27
     IRS Oversight Board 2006 Taxpayer Attitude Survey.
28
     See Appendix V, Figure 24.
                                                                                                             Page 8
                     Trends in Compliance Activities Through Fiscal Year 2006




            o The number of individual income tax returns with income under $100,000
              examined increased from 518,218 (1 in 221 tax returns filed) in FY 2000 to
              1,026,333 (1 in 114 tax returns filed) in FY 2006.29 This increase was almost
              entirely due to a rise in the number of correspondence examinations, which
              accounted for 87 percent of the examinations in this income category in FY 2006.
              Only 1 in 895 individual income tax returns filed with income under $100,000
              received a face-to-face examination, while 1 in 130 received a correspondence
              examination.
            o The number of individual income tax returns with income of $100,000 and over
              (high-income taxpayers) examined increased from 99,547 (1 in 104 tax returns
              filed) in FY 2000 to 257,617 (1 in 60 tax returns filed) in FY 2006.30 Most
              (74 percent) of this increase was due to a rise in the number of correspondence
              examinations, which accounted for 62 percent of the examinations in this income
              category in FY 2006. Only 1 in 159 individual income tax returns filed with
              income of $100,000 and over received a face-to-face examination, while 1 in 96
              received a correspondence examination.
                In a report issued last year, we noted that correspondence examinations of
                high-income taxpayers may have only a limited impact on compliance.31
                Taxpayers did not always respond to these examinations. About 86 percent of the
                amount assessed on these no-response cases was either reversed or not collected
                after an average of 608 calendar days (almost 2 years) from the date of the
                assessment.
         Earned Income Tax Credit issues accounted for between 55 percent and 83 percent of the
         examinations of individual income tax returns with income under $25,000 for FYs 2000
         through 2006 and accounted for 28 percent of the examinations of individuals overall
         during FY 2006. Excluding examinations in which the Earned Income Tax Credit was an
         issue, from FYs 2000 to 2006, the number of examinations of individual tax returns with
         income under $100,000 increased 166 percent (from 250,248 to 666,400) and the number
         with income of $100,000 and over increased 158 percent (from 98,983 to 255,002).
     •   Corporate Income Tax Examinations – The number of corporate income tax returns
         examined (excluding returns for foreign and S Corporations) decreased 1 percent in
         FY 2006, after increasing 71 percent in FY 2005. Even with the increase in FY 2005, the
         number of examinations has still decreased 59 percent since FY 1997. In FYs 1997 to



29
   See Appendix V, Figures 24 and 25.
30
   See Appendix V, Figures 24 and 25.
31
   While Examinations of High-Income Taxpayers Have Increased, the Impact on Compliance May Be Limited
(Reference Number 2006-30-105, dated July 25, 2006).
                                                                                                    Page 9
                      Trends in Compliance Activities Through Fiscal Year 2006




         2006, the total number of corporate tax returns examined decreased from 69,295 (1 out of
         37 returns filed) to 28,427 (1 out of 80 returns filed).32
         The number of corporate tax returns with assets of under $10 million examined was
         unchanged in FY 2006. During the same period, the number of corporate tax returns with
         assets of $10 million and over examined decreased just over 2 percent. However, a much
         higher percentage of these larger corporations are examined than those with assets of
         under $10 million.
     •   S Corporation Return Examinations – After declining 75 percent from FYs 1998 to 2004,
         the number of S Corporation tax returns examined increased 63 percent in FY 2005 and
         another 34 percent in FY 2006. Since FY 2004, the number of S Corporation returns
         filed has increased 10 percent. During that period, the number of tax returns examined
         increased from 1 out of 526 returns filed to 1 out of 266 returns filed.33 The increase in
         examination coverage can be partly attributed to the IRS research project studying the
         compliance of S Corporation entities. The results of this project could lead to changes in
         the selection of these tax returns for examination. For additional information, see our
         recently issued audit report on the research project.34
     •   Partnership Return Examinations – The number of partnership returns examined
         increased by almost 15 percent in FY 2006 and has increased 92 percent since the
         10-year low experienced in FY 2001. The number of returns filed increased by about
         32 percent between FYs 2001 and 2006.35 About 1 out of every 408 returns filed in
         FY 2001 was examined; this increased to 1 out of every 279 for this year.
Other Tax Types Examinations (Fiduciary, Employment, Excise, Estate, and Gift Taxes) – The
overall number of examinations in these 5 classes increased almost 7 percent during FY 2006
and was up almost 72 percent from the 10-year low experienced in FY 2003. The ratio of tax
returns examined to tax returns filed was higher for each class, compared to FY 2003, except
fiduciaries. While the ratio for fiduciaries had a spike in FY 2005, there was an overall decrease
of 40 percent from FYs 2003 to 2006.36




32
   See Appendix V, Figures 37, 38, and 50 for coverage by size of corporation.
33
   See Appendix V, Figures 40 and 50.
34
   The National Research Program Study of S Corporations Has Been Effectively Implemented, but Unnecessary
Information Was Requested From Taxpayers (Reference Number 2007-30-027, dated January 30, 2007).
35
   See Appendix V, Figures 41 and 50.
36
   See Appendix V, Figures 42 through 46 and 50.
                                                                                                     Page 10
                        Trends in Compliance Activities Through Fiscal Year 2006




Examination function dollar yield per hour has mixed results
Figure 3 shows the impact on the
                                                         Figure 3: Examination Function Dollar Yield per Hour
dollar yield per hour for FYs 1997 to
2006 for revenue agents and tax                           R A - In d iv id u a l             T C O - In d iv id u a l              R A - C o rp o ra te

compliance officers on individual and       $ 3 ,2 0 0




corporate tax returns. The dollar           $ 2 ,8 0 0




yield per hour improved just over           $ 2 ,4 0 0




23 percent for tax compliance officer       $ 2 ,0 0 0




individual tax return examinations          $ 1 ,6 0 0



                                            $ 1 ,2 0 0
and almost 40 percent for revenue
                                              $800
agent corporate tax return
                                              $400
examinations during FY 2006.                    FY 1997      FY 1998     FY 1999   FY 2000     FY 2001    FY 2002       FY 2003   FY 2004   FY 2005    FY 2006



However, the yield decreased almost        Source: TIGTA analysis of Examination Table 37. RA = revenue agent;
                                           TCO = tax compliance officer.
13 percent for revenue agent
individual tax return examinations.
The Examination function dollar yield per hour for individual income tax return examinations
was lower in FY 2004 than in FY 1997.37 During FYs 2005 and 2006, the yield increased for tax
compliance officers. The yield per hour increased significantly for revenue agents during
FY 2005 but then decreased slightly this year. Only the yield per hour for revenue agents is
above the FY 1997 level. The dollar results per individual income tax return examined
fluctuated during the period; the number of hours used to examine each tax return increased
substantially through FY 2004 then decreased in FYs 2005 and 2006.
The dollar yield per hour spent examining corporate tax returns has increased each year since
FY 2003. The total increase for the 3 years was 239 percent.38 During the same time period, the
average hours spent examining each tax return and the average dollar amounts assessed per
return fluctuated. The net effect was the increase in the dollar yield per hour. While there was
an overall increase in average assessments per return, there were significant increases in average
assessments for larger corporations (those with assets of $5 million and over).




37
     See Appendix V, Figures 20 and 23.
38
     See Appendix V, Figure 21.




                                                                                                                                                      Page 11
                          Trends in Compliance Activities Through Fiscal Year 2006




                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information requested by the IRS
Oversight Board and trend analyses of that information.
To accomplish our objective, we analyzed information obtained from the IRS’ management
information system reports to determine the trends and changes in the major areas of compliance.
Because we relied on information accumulated by the IRS in established reports, we did not
verify its accuracy. The major issues we focused on included:
       •   Enforcement revenue1 and gross accounts receivable.
       •   Collection and Examination function staffing.
       •   Collection and Examination function direct time.
       •   Collection function delinquent account inventories and unfiled return investigations.
       •   Collection function enforcement actions (liens, levies, and seizures).
       •   Examination function coverage of individual and business tax returns compared to the
           number of returns filed in each category.
       •   Examination function productivity results for individual and business tax returns.
       •   Other activities resulting in improvement to the accuracy of filed tax returns and the
           filing of delinquent returns.




1
    See Appendix IV for a glossary of terms used in this report.
                                                                                            Page 12
                   Trends in Compliance Activities Through Fiscal Year 2006




                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Jeff K. Jones, Senior Auditor




                                                                                        Page 13
                 Trends in Compliance Activities Through Fiscal Year 2006




                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 14
                    Trends in Compliance Activities Through Fiscal Year 2006




                                                                                   Appendix IV

                                 Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Substitute for Return system – A system designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the IRS and historical tax return
information.
Balance Sheet – A statement of the financial assets and liabilities of a business at a given date
filed with a corporate income tax return; it is used by the IRS to group businesses by the size of
their assets.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the field offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Computing Center – Computing Centers support tax processing and information management
through a data processing and telecommunications infrastructure.
Corporate Income Tax Returns – U.S. Corporation Income Tax Returns (Form 1120) are used
by corporations to report the corporate income tax.
Earned Income Tax Credit – A tax credit for certain people who work and have income under
established limits.
Employment Tax Returns – Various Form 940 return series (primarily Employer’s Annual
Federal Unemployment (FUTA) Tax Return (Form 940) and Employer’s QUARTERLY Federal
Tax Return (Form 941)) filed by businesses to report things such as employer’s Federal
unemployment taxes and Federal taxes withheld.
Enforcement Revenue – Any tax, penalty, or interest received from a taxpayer as a result of an
IRS enforcement action (usually an examination or a collection action).
Estate Tax Return – United States Estate (and Generation-Skipping Transfer) Tax Return
(Form 706) is filed for certain estates of deceased persons.
Examination (Face-to-Face) – Field examinations of individuals, partnerships, and corporations
that occur either at the taxpayer’s place of business or through interviews at an IRS office.
                                                                                            Page 15
                    Trends in Compliance Activities Through Fiscal Year 2006




Excise Tax Return – Quarterly Federal Excise Tax Return (Form 720) is used to report and pay
certain taxes, such as those on transportation and fuel.
Fiduciary Income Tax Returns – Income tax returns filed for estates and trusts.
Gift Tax Return – United States Gift (and Generation-Skipping Transfer) Tax Return
(Form 709) is used to report transfers subject to the Federal gift taxes and to calculate the tax
due on those transfers.
Gross Accounts Receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series) are
annual income tax returns filed by citizens or residents of the United States.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Math Error – A program in which the IRS contacts taxpayers through the mail or by telephone
when it identifies mathematical errors or mismatches of taxpayer information that would result in
a tax change.
National Research Project – Research conducted by the IRS to determine filing, payment, and
reporting compliance by taxpayers for different types of taxes.
Partnership Return – U.S. Return of Partnership Income (Form 1065) is used to report the
income and expenses of domestic partnerships and the share distributed to each partner.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Revenue Agent – Employees in the Examination function that conduct face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses
(formerly known as service centers) or the ACS.
Revenue Officer Examiner – Revenue officers that have been trained to conduct examinations
of employment tax returns.
S Corporation Tax Return – U.S. Income Tax Return for an S Corporation (Form 1120S) is
filed by qualifying small business corporations and includes amounts distributed to shareholders.
Schedule C – A schedule filed with Forms 1040 to report Profit or Loss From Business.
Schedule F – A schedule filed with Forms 1040 to report Profit or Loss From Farming.

                                                                                             Page 16
                    Trends in Compliance Activities Through Fiscal Year 2006




Seizure – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Service Center Collection Branch – Mails the balance-due and return-delinquency notices to
taxpayers and analyzes and responds to taxpayer correspondence.
Shelved or Surveyed Cases – Delinquent unpaid accounts or investigations of unfiled tax
returns that have been taken out of the Collection function’s inventory because they are of lower
priority than other available inventory.
Tax Compliance Officer/Tax Auditor – Employees in the Examination function that primarily
conduct examinations of individual taxpayers through interviews at IRS field offices. The
position title was changed in 2002 from tax auditor to tax compliance officer.
Tax Examiner – Employees in field offices that conduct examinations through correspondence.
Taxpayer Delinquent Account – A balance-due account of a taxpayer. A separate TDA exists
for each tax period.
Taxpayer Delinquency Investigation – An unfiled tax return for a taxpayer. One TDI exists for
all tax periods.
Tax Gap – The difference between what taxpayers should have paid and what they actually paid
timely.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Total Gross Receipts – The categories used for individual income tax returns with Profit or
Loss From Business (Schedule C) or Profit or Loss From Farming (Schedule F) income based on
the total receipts reported.
Underreporter – The Underreporter Program matches items reported on an individual’s income
tax return to information supplied to the IRS from outside sources (such as from employers,
banks, and credit unions) to determine if the taxpayer’s tax return reflected the correct amounts,
ensuring the tax amount is correct.




                                                                                              Page 17
                       Trends in Compliance Activities Through Fiscal Year 2006




                                                                                                        Appendix V

            Detailed Charts of Statistical Information

Figure 1 – Gross Collections by Type of Tax Since FY 1997...............................Page 21
Figure 2 – Change in Enforcement Revenue and Gross Accounts
           Receivable – Percentage Change From FY 1997 .................................Page 21
Figure 3 – Amounts of Enforcement Revenue Collected Compared to
           Growth in Gross Accounts Receivable.................................................Page 22
Figure 4 – Examination Function Staffing at the End of Each Fiscal Year...........Page 22
Figure 5 – CFf Staffing at the End of Each Fiscal Year ........................................Page 23
Figure 6 – Staff Years Detailed to Customer Service............................................Page 23
Figure 7 – Changes in Direct Time Percentages....................................................Page 24
Figure 8 – Average Dollars Collected per Staff Year on TDAs by the CFf..........Page 24
Figure 9 – Total Dollars Collected on TDAs by the CFf and ACS .......................Page 25
Figure 10 – TDAs and TDIs in the Queue.............................................................Page 25
Figure 11 – TDAs and TDIs Shelved or Surveyed Each Year ..............................Page 26
Figure 12 – Gap Between TDA Receipts and Closures.........................................Page 26
Figure 13 – Number of Taxpayers and Amounts Owed in the Queue...................Page 27
Figure 14 – Number of TDAs Closed, Excluding Shelved Accounts ...................Page 27
Figure 15 – Number of TDAs Closed by Full Payment ........................................Page 28
Figure 16 – Liens Filed by the CFf and ACS ........................................................Page 28
Figure 17 – Levies Issued by the CFf and ACS.....................................................Page 29
Figure 18 – Number of Seizures Made Each Fiscal Year......................................Page 29
Figure 19 – Examination Coverage of All Tax Returns – Percentage Change
            From FY 1997 ....................................................................................Page 30



                                                                                                                   Page 18
                        Trends in Compliance Activities Through Fiscal Year 2006




Figure 20 – Revenue Agent Results on U.S. Individual Income Tax
            Returns (Form 1040), Excluding Training Returns – Percentage
            Change From FY 1997 .......................................................................Page 30
Figure 21 – Revenue Agent Results on Corporate Income Tax Returns,
            Excluding Training Returns – Percentage Change From FY 1997....Page 31
Figure 22 – Revenue Agent Results on Other Types of Tax Returns,
            Excluding Training Returns – Percentage Change From FY 1997....Page 31
Figure 23 – Tax Compliance Officer Results on Forms 1040, Excluding
            Training Returns – Percentage Change From FY 1997 .....................Page 32
Figure 24 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence ..................................................................................Page 32
Figure 25 – Percentage of Forms 1040 Examined Face-to-Face or
            Through Correspondence ...................................................................Page 33
Figure 26 – Number of Forms 1040 Examined by Correspondence
            Examination (Excluding Those With Farm Income) .........................Page 33
Figure 27 – Number of Forms 1040 Examined by Field Offices (Excluding
            Those With Farm Income) .................................................................Page 34
Figure 28 – Percentage of Forms 1040 Examined.................................................Page 34
Figure 29 – Percentage Examined – Forms 1040 With No Business
            or Farm Income ..................................................................................Page 35
Figure 30 – Examination Coverage of Nonbusiness Forms 1040 –
            Under $100,000 ..................................................................................Page 35
Figure 31 – Examination Coverage of Nonbusiness Forms 1040 – $100,000
            and Over .............................................................................................Page 36
Figure 32 – Examination Coverage of Forms 1040 With Business Income
            (Excluding Farms)..............................................................................Page 36
Figure 33 – Examination Coverage of Forms 1040 With Farm Income ...............Page 37
Figure 34 – Examination Coverage of Corporate Income Tax Returns –
            Percentage Change From FY 1997 ....................................................Page 37
Figure 35 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of Under $10 Million ...............................Page 38

                                                                                                                        Page 19
                       Trends in Compliance Activities Through Fiscal Year 2006




Figure 36 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of $10 Million and Over...........................Page 38
Figure 37 – Examination Coverage of Corporations With Assets of
            Under $10 Million ..............................................................................Page 39
Figure 38 – Examination Coverage of Corporations With Assets of
            $10 Million and Over .........................................................................Page 39
Figure 39 – Examination Coverage of Forms 1120S – Percentage Change
            From FY 1997 ....................................................................................Page 40
Figure 40 – Examination Coverage of Forms 1120S ............................................Page 40
Figure 41 – Examination Coverage of Partnership Income Tax Returns ..............Page 41
Figure 42 – Examination Coverage of Fiduciary Income Tax Returns .................Page 41
Figure 43 – Examination Coverage of Employment Tax Returns.........................Page 42
Figure 44 – Examination Coverage of Excise Tax Returns...................................Page 42
Figure 45 – Examination Coverage of Estate Tax Returns....................................Page 43
Figure 46 – Examination Coverage of Gift Tax Returns.......................................Page 43
Figure 47 – Other Compliance Contacts on Forms 1040 ......................................Page 44
Figure 48 – Other Compliance Contacts – Percentage of Form 1040 Coverage...Page 44
Figure 49 – Numbers and Percentages of Forms 1040 Examined.........................Page 45
Figure 50 – Numbers and Percentages of Business Tax Returns Examined .........Page 46




                                                                                                                   Page 20
                                      Trends in Compliance Activities Through Fiscal Year 2006




Figure 1. Gross Collections by Type of Tax Since FY 1997. Overall, gross tax collections
rose in FY 2006 to the highest level of the 10-year analysis. Since the low experienced in
FY 2003, corporate income tax collections increased by 96 percent, individual income tax
collections increased by 25 percent, and employment tax collections increased by 17 percent.
              $3.0
                                                                                                                                            Excise Tax

              $2.5

                                                                                                                                            Estate & Gift
              $2.0                                                                                                                          Tax
  Trillions




              $1.5                                                                                                                          Employment
                                                                                                                                            Tax


              $1.0                                                                                                                          Corporate
                                                                                                                                            Income Tax

              $0.5
                                                                                                                                            Individual
                                                                                                                                            Income Tax
              $0.0
                     97          98          99          00          01          02          03          04          05          06
                   19          19          19          20          20          20          20          20          20          20
              FY          FY          FY          FY          FY          FY          FY          FY          FY          FY
  Source: TIGTA analysis of IRS Data Book.

Figure 2. Change in Enforcement Revenue and Gross Accounts Receivable – Percentage
Change From FY 1997. Enforcement revenue has been increasing sharply since FY 2002; for
FY 2006, it was 31 percent higher than it was for FY 1997. After decreasing sharply during
FY 2005, gross accounts receivable increased to a level 15 percent higher than that in FY 1997.
                                           Enforcement Revenue                                           Gross Accounts Receivable
      35%
                                                                                                                                                31%
      30%
                                                                                                                                          27%
      25%
                                                                                           18%                            21%
                                                                           17%                            18%
      20%
                                                              12%                                                                                15%
      15%
                                              9%                                                                          16%
      10%
                                4%
                                                                                                                                       9%
              5%
                                                                                                        1%
              0%

         -5%
                               -5%            -11%
   -10%
                                                              -9%          -9%              -8%
   -15%
      FY 1997              FY 1998          FY 1999       FY 2000         FY 2001      FY 2002          FY 2003       FY 2004         FY 2005     FY 2006

  Source: Office of Research, Analysis, and Statistics and Chief Financial Officer information.

                                                                                                                                                   Page 21
                                                          Trends in Compliance Activities Through Fiscal Year 2006




Figure 3. Amounts of Enforcement Revenue Collected Compared to Growth in Gross
Accounts Receivable. After several years of remaining relatively constant, enforcement
revenue collected has increased 43 percent since FY 2002. Gross accounts receivable increased
5 percent during FY 2006 alone.
                                                             Enforcement Revenue                                   Gross Accounts Receivable
                                    $50                                                                                                                        $290
                                                                                                                                $285                  $48.7
                                                                                                        $280
                                                                                                                   $278




                                                                                                                                                                       Gross Accounts Receivable (Billions)
                                    $48                                                                                                                        $280
                                                                                        $276                                            $47.3
   Enforcement Revenue (Billions)




                                                                                                                                                      $271
                                    $46
                                                                            $264                                                                               $270
                                    $44
                                                            $257                                                                                               $260
                                                                                                                                    $43.1         $258
                                    $42
                                                   $246                                                                                                        $250
                                    $40
                                          $236
                                                                                                                  $37.6                                        $240
                                    $38
                                           $37.2
                                                                                                                                                               $230
                                    $36
                                                          $35.2                                        $34.1
                                                                               $33.8       $33.8
                                    $34                                                                                                                        $220

                                                                     $32.9
                                    $32                                                                                                                       $210
                                     FY 1997     FY 1998      FY 1999         FY 2000      FY 2001     FY 2002    FY 2003      FY 2004      FY 2005      FY 2006

 Source: Office of Research, Analysis, and Statistics and Chief Financial Officer information.

Figure 4. Examination Function Staffing at the End of Each Fiscal Year. The numbers in
this chart represent the Examination function staff conducting examinations of tax returns
(excludes management and overhead staff). During FY 2006, revenue agent and tax compliance
officer (formerly referred to as tax auditor) staffing increased, but the combined total is almost
22 percent lower than it was at the beginning of FY 1997.
                                                                  Revenue Agent                                            Tax Compliance Officer
  14,000

  12,000
                                          12,685    11,912         11,591
  10,000                                                                      11,014
                                                                                           10,381                                                             10,513
                                                                                                       9,994     9,776                 9,787      9,682
                                                                                                                            9,244
          8,000


          6,000

          4,000
                                            2,197         2,011       1,850        1,650
          2,000                                                                                1,393     1,190     1,148                                         1,145
                                                                                                                              1,041         987       981

                                      0
                                          FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006

  Source: TIGTA analysis of Examination Table 37.

                                                                                                                                                                 Page 22
                          Trends in Compliance Activities Through Fiscal Year 2006




Figure 5. CFf Staffing at the End of Each Fiscal Year. The number of revenue officers
working assigned delinquent cases (excludes management and overhead staff) increased slightly
during the year but is almost 30 percent fewer than at the start of FY 1997.
  6,000

             5,537      5,439
  5,000
                                    4,989

  4,000                                         4,354

                                                                             3,792                              3,779                    3,876
                                                              3,601                                                         3,680
                                                                                          3,495     3,499
  3,000


  2,000


  1,000


      0
              6          97         98         99               0              1         02         03         04             5            6
        1   99         19         19         19           2   00         2   00        20         20         20         2   00       2   00
     FY             FY         FY         FY           FY             FY            FY         FY         FY         FY           FY
  Source: Collection Report 5000-23.

Figure 6. Staff Years Detailed to Customer Service. The number of staff years detailed to
customer service decreased again in FY 2006 and remained lower than the number detailed
during FY 1997.
                                    Collection                                                           Examination
   700
                                                          646

   600


   500                                    468


   400
                              338
                                                 323
                                    288
   300

                  183                                                                   174
   200                  154
                                                                         167
                                                                104
            82
   100                                                                                             60
                                                                                   43                           30
                                                                                              15            3            1 10        1     9
     0
          FY 1997       FY 1998     FY 1999      FY 2000        FY 2001            FY 2002    FY 2003    FY 2004        FY 2005     FY 2006

  Source: TIGTA analysis of Collection Report 5000-23 and Examination Table 37.


                                                                                                                                               Page 23
                          Trends in Compliance Activities Through Fiscal Year 2006




Figure 7. Changes in Direct Time Percentages. The Collection and Examination functions
had both increased the percentage of overall time charged to their direct tax-related
responsibilities (collecting taxes, securing tax returns not timely filed, and examining tax returns)
since FY 2000, but the direct time percentages decreased for both functions during FY 2006.
This decrease can be partly attributed to the increase in training time spent on newly hired
employees. The Examination and Collection functions changed what types of time they capture
as direct and indirect in recent years, including capturing some of the previous indirect time as
direct time. The chart below depicts our recalculation of direct time based on direct time
categories from prior years, to present consistent data for the 10 years included in the graph.
                                     Collection                                                     Examination

  65%


  60%


  55%


  50%


  45%


  40%


  35%


  30%
    FY 1997     FY 1998          FY 1999        FY 2000      FY 2001     FY 2002          FY 2003      FY 2004       FY 2005         FY 2006

  Source: TIGTA analysis of Collection Report 5000-23 and Examination Table 37.

Figure 8. Average Dollars Collected per Staff Year on TDAs by the CFf. The average
amount collected by the CFf for each staff year has increased significantly since FY 1999
(by almost 105 percent) but decreased slightly in FY 2006 (by almost 4 percent).
   $600,000


   $550,000                                                                                                       $576,777
                                                                                                                               $554,909

   $500,000


   $450,000
                                                                                                        $451,100
   $400,000                                                                                $416,450

               $375,337
   $350,000
                                                                                $353,755
                           $336,758                                $331,603
   $300,000
                                                        $293,686
   $250,000                              $271,110


   $200,000
                97          98             99           00          01          02          03          04          05          06
              19          19             19           20          20          20          20          20          20          20
         FY          FY             FY           FY          FY          FY          FY          FY          FY          FY

  Source: TIGTA analysis of Collection Reports 5000-2 and 5000-23.


                                                                                                                                      Page 24
                                                        Trends in Compliance Activities Through Fiscal Year 2006




Figure 9. Total Dollars Collected on TDAs by the CFf and ACS. The combined amount
collected by the CFf and ACS has increased constantly since FY 2000, even though the amount
collected by the CFf decreased by almost 8 percent during FY 2006. The overall increase
occurred because of the large increase in the amount collected by the ACS (just over 32 percent)
during FY 2006.
                                                                    CFf Amount Collected                                              ACS Amount Collected

                                   $7,000,000



                                   $6,000,000   $2,296,880
                                                                                                                                                                        $2,569,208
                                                                                                                                                           $1,941,210
   Dollars Collected (Thousands)




                                                             $2,078,191
                                   $5,000,000
                                                                                                                                              $1,669,735

                                                                                                                                $1,515,953
                                   $4,000,000
                                                $3,984,172                $1,442,540                 $1,275,111   $1,249,261
                                                                                                                                                           $3,906,915
                                                                                       $1,159,473                                                                       $3,600,957
                                   $3,000,000                $3,365,075                                                                       $3,392,249
                                                                                                                                $3,083,984
                                                                                                  $2,677,226      $2,746,646
                                                                          $2,477,034
                                   $2,000,000                                          $2,447,824



                                   $1,000,000



                                           $0
                                                FY 1997      FY 1998      FY 1999      FY 2000       FY 2001       FY 2002       FY 2003      FY 2004       FY 2005     FY 2006

  Source: Collection Report 5000-2.

Figure 10. TDAs and TDIs in the Queue. The number of taxpayers with TDIs in the Queue
increased from FYs 1997 to 2000, with significant spikes during FYs 1999 and 2000, then
decreased to remain at relatively constant levels. However, the overall trend showed an increase
in the number of taxpayers with TDAs in the Queue from FYs 1997 through 2006. This
occurred even though, in recent years, the IRS removed from the Queue a large number of cases
that were considered to be potentially less productive than other Queue inventory
(see Figure 11).
                                                                 Taxpayers With TDAs                                                  Taxpayers With TDIs
  2,000,000
                                                                                            1,876,629
  1,800,000

  1,600,000

  1,400,000                                                           1,282,919

  1,200,000
                                                                                                                                959,075
  1,000,000
                                                                                                    821,188                                   838,090                    824,936
                                                                                                                  767,459
                 800,000                                                                                                                                    716,315
                                                                                                                                                                      779,272
                 600,000
                                             435,337      456,711                                                                         623,477       607,114
                                                                                                                            591,372
                                                                                  537,781      542,406        514,915
                 400,000
                                          425,780      407,210      445,877

                 200,000

                                      0
                                           FY 1997      FY 1998      FY 1999       FY 2000       FY 2001       FY 2002         FY 2003       FY 2004       FY 2005      FY 2006

  Source: Collection Reports 5000-2 and 5000-4.

                                                                                                                                                                             Page 25
                                       Trends in Compliance Activities Through Fiscal Year 2006




Figure 11. TDAs and TDIs Shelved or Surveyed Each Year. While the total volume of TDA
and TDI tax periods shelved or surveyed decreased significantly (by just over 47 percent) from
FYs 2004 to 2006, the IRS has removed millions of TDA and TDI tax periods from the Queue
inventory in recent years.
                                                                 TDAs                                                                TDIs
                8,000,000
                                                                                            7,099,437

                7,000,000


                6,000,000


                5,000,000
  Tax Periods




                4,000,000


                3,000,000
                                                                                                                                    2,197,857
                                                                                                         1,749,590     1,875,353
                                                                         1,942,929
                2,000,000                                                             1,720,683
                                                                                                  1,567,023
                                                                  981,255      931,011                                                            1,178,853
                                                                                                                                                               1,080,492
                                                                                                               1,089,580   1,020,503
                1,000,000                                 790,729                                                                            788,083
                                                                                                                                                          613,036
                                    42,956            46,349
                            3,705            13,702
                        0
                             FY 1997          FY 1998          FY 1999      FY 2000      FY 2001        FY 2002      FY 2003       FY 2004      FY 2005       FY 2006

  Source: TIGTA analysis of Collection Reports 5000-2 and 5000-4.

Figure 12. Gap Between TDA Receipts and Closures. The gap between TDA receipts and
closures narrowed slightly after widening in FY 2005. However, the number of receipts has
been greater than the number of closures each year since FY 1997. The closures shown in this
chart do not include the TDAs shelved, which are shown in Figure 11.
                                                          TDA Receipts                                                         TDA Closures
                7,000


                6,000
    Thousands




                5,000


                4,000


                3,000


                2,000


                1,000


                   0
                  FY 1997           FY 1998           FY 1999       FY 2000          FY 2001        FY 2002          FY 2003       FY 2004        FY 2005           FY 2006

  Source: TIGTA analysis of Collection Report 5000-2.

                                                                                                                                                                     Page 26
                                                   Trends in Compliance Activities Through Fiscal Year 2006




Figure 13. Number of Taxpayers and Amounts Owed in the Queue. Between FYs 2005 and
2006, the number of taxpayers with TDAs in the Queue inventory increased by just over
28 percent, and the amount owed on those accounts increased by just over 34 percent.
                                                          Amount Owed                                      Number of Taxpayers
                            $40                                                                                                                      800,000

                            $35                                                                                                                      750,000

                            $30                                                                                                                      700,000
   Amount Owed (Billions)




                                                                                                                                                               Number of Taxpayers
                            $25                                                                                                                      650,000

                            $20                                                                                                                      600,000

                            $15                                                                                                                      550,000

                            $10                                                                                                                      500,000

                            $5                                                                                                                       450,000

                            $0                                                                                                                    400,000
                            FY 1997       FY 1998 FY 1999           FY 2000 FY 2001         FY 2002 FY 2003         FY 2004 FY 2005          FY 2006

  Source: Collection Report 5000-2.

Figure 14. Number of TDAs Closed, Excluding Shelved Accounts. The number of TDAs
closed increased for the ACS/CS, CFf, Queue, and Service Center Collection Branch in
FY 2006.
                                                        ACS/CS                                CFf                               Queue & SCCB
  3,500,000
                                                                                                                                               3,264,944
           3,201,808
                                                                                                                                   3,052,010
  3,000,000                                                                                                            2,922,041
                                                  2,814,025

                                                                                                           2,555,754
  2,500,000


                                                                                    2,013,562 1,975,215
  2,000,000                                                   1,873,520 1,819,424
                                      1,676,949

  1,500,000                                         1,327,863

                                                                                                                                       1,080,980 1,097,181
                                                                 951,984                                                     955,887
  1,000,000                                                                                                      880,939
                                                                             771,455     757,392     724,430
                                                                                                                                                       528,691
                                                                                                                               469,695     451,775
                 500,000                                                                               314,124     370,217
                                                                                           269,855
                                          133,905      146,807     128,930     180,991

                                  0
                                       FY 1997      FY 1998      FY 1999     FY 2000     FY 2001     FY 2002     FY 2003     FY 2004     FY 2005     FY 2006

  Source: TIGTA analysis of Collection Report 5000-2. SCCB = Service Center Collection Branch;
  CS = Customer Service.

                                                                                                                                                          Page 27
                                Trends in Compliance Activities Through Fiscal Year 2006




Figure 15. Number of TDAs Closed by Full Payment. The total number of TDAs closed by
full payment increased by 8.7 percent in FY 2006. Since FY 2002, there has been a steady
increase in the number of accounts closed by full payment by the ACS/CS and CFf.
                                   ACS/CS                                         CFf                                      Queue & SCCB
  1,000,000
              893,620                                                                                                                          935,117
   900,000                                                                                                                     847,537
                              793,958                                                                            784,124
   800,000                                                              742,563                     723,659
                                            688,622       679,872
   700,000                                                                              644,301

   600,000
                  494,567
   500,000
                                398,718                                                                                          390,521      396,604
   400,000                                                                                                         346,650
                                                                                                       330,934
                                              275,981                                     269,139
   300,000                                                                239,503
                                                            235,797
                                                                                                                                                 216,014
                                                                                                                    193,564         185,552
   200,000                                                                                   137,179     153,839
                                                                             105,609
   100,000                         49,798                      64,312
                     42,702                      38,227

         0
                  FY 1997       FY 1998       FY 1999       FY 2000       FY 2001         FY 2002      FY 2003     FY 2004       FY 2005      FY 2006

  Source: TIGTA analysis of Collection Report 5000-2. SCCB = Service Center Collection Branch;
  CS = Customer Service.

Figure 16. Liens Filed by the CFf and ACS. During the year the total number of liens filed
increased by 20 percent. This followed a decrease in each of the 2 previous fiscal years. The
number of liens filed by the ACS increased 16 percent, and those filed by the CFf increased
24 percent.
                                                               CFf                                                 ACS
    700,000


    600,000


    500,000                                                                                                                                   280,925
                    176,926
                                                                                                       253,053     256,595
    400,000
                                                                                          245,734                                241,805
                                   99,402                                  211,367
    300,000
                                                              141,202
    200,000                                     23,180
                    366,687                                                                                                                   348,888
                                  283,353                                                              291,263
                                                                                                                                281,082
                                                                                          236,775                  277,797
    100,000                                                                214,799
                                                144,687      146,315

              0
                    FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006

  Source: Small Business/Self-Employed Division Collection Planning and Analysis, Collection National Reports.


                                                                                                                                                   Page 28
                             Trends in Compliance Activities Through Fiscal Year 2006




Figure 17. Levies Issued by the CFf and ACS. Increasing numbers of levies have been issued
by the CFf and ACS since FY 2000. Compared to FY 2005, the total number of levies issued
during FY 2006 increased by slightly over 36 percent.
                                                  CFf                                                  ACS
  4,000,000

                                                                                                                                       3,496,519
  3,500,000      2,968,489


  3,000,000

  2,500,000                                                                                                                2,535,063
                               2,029,928

  2,000,000
                                                                                                               1,861,467

  1,500,000                                                                                       1,538,094


                                                                                     1,140,487
  1,000,000
                                                                       533,405
                                            397,656
                                                           144,881
    500,000
                  690,928    473,481
                                       106,747    74,897        140,675          143,255     142,750      168,146     208,514      245,757
           0
                 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006

  Source: Small Business/Self-Employed Division Collection Planning and Analysis, Collection National Reports.

Figure 18. Number of Seizures Made Each Fiscal Year. The number of seizures made
continued the upward trend that has occurred since FY 2000, but it is still only about 6 percent of
the seizures made in FY 1997.
  12,000

               10,090
  10,000



   8,000



   6,000



   4,000

                             2,259
   2,000

                                                                                                  399           440         512          590
                                           161          74            234            296
       0
           FY 1997          FY 1998    FY 1999        FY 2000        FY 2001      FY 2002        FY 2003      FY 2004      FY 2005     FY 2006

  Source: IRS Data Book.

                                                                                                                                             Page 29
                     Trends in Compliance Activities Through Fiscal Year 2006




Figure 19. Examination Coverage of All Tax Returns – Percentage Change From FY 1997.
While the examination coverage of tax returns is still below the level in FY 1997, the growth in
examination coverage again outpaced the growth in returns filed during FY 2005.
                            Returns Filed                                   Returns Examined
   20%

   10%

    0%

  -10%

  -20%

  -30%

  -40%

  -50%

  -60%

  -70%
     FY 1997    FY 1998   FY 1999      FY 2000   FY 2001   FY 2002      FY 2003   FY 2004   FY 2005       FY 2006

  Source: TIGTA analysis of IRS Data Book.

Figure 20. Revenue Agent Results on U.S. Individual Income Tax Returns (Form 1040),
Excluding Training Returns – Percentage Change From FY 1997. The hours and dollars per
return both had a significant decrease during FY 2006. The combined effect resulted in a
decrease in dollars per hour of almost 13 percent.
                    Hours Per Return                 Dollars Per Hour                Dollars Per Return
  250%


  200%


  150%


  100%


   50%


    0%


   -50%
      FY 1997   FY 1998   FY 1999      FY 2000   FY 2001   FY 2002      FY 2003   FY 2004   FY 2005       FY 2006

  Source: TIGTA analysis of Examination Table 37.

                                                                                                           Page 30
                     Trends in Compliance Activities Through Fiscal Year 2006




Figure 21. Revenue Agent Results on Corporate Income Tax Returns, Excluding Training
Returns – Percentage Change From FY 1997. The hours and dollars per return both increased
during the year. However, the increase in dollars per return was substantial enough that the
combined effect resulted in an increase in dollars per hour of almost 40 percent.
                    Hours Per Return                 Dollars Per Hour                Dollars Per Return
   500%


   400%


   300%


   200%


   100%


     0%


  -100%
      FY 1997   FY 1998   FY 1999      FY 2000   FY 2001   FY 2002      FY 2003   FY 2004   FY 2005       FY 2006

  Source: TIGTA analysis of Examination Table 37.

Figure 22. Revenue Agent Results on Other Types of Tax Returns, Excluding Training
Returns – Percentage Change From FY 1997. The hours per return decreased significantly
during the year, while the dollars per return was unchanged. However, due to the decrease in the
hours per return, the combined effect was that dollars per hour increased by just over 21 percent.
                    Hours Per Return                 Dollars Per Hour                Dollars Per Return
  120%

  100%

   80%

   60%

   40%

   20%

    0%

   -20%

   -40%
      FY 1997   FY 1998   FY 1999      FY 2000   FY 2001   FY 2002      FY 2003   FY 2004   FY 2005       FY 2006

  Source: TIGTA analysis of Examination Table 37.

                                                                                                           Page 31
                            Trends in Compliance Activities Through Fiscal Year 2006




Figure 23. Tax Compliance Officer Results on Forms 1040, Excluding Training Returns –
Percentage Change From FY 1997. The hours per return decreased and the dollars per return
increased slightly during the year. The combined effect was that dollars per hour increased by
just over 23 percent.
                           Hours Per Return                                      Dollars Per Hour                                Dollars Per Return
  200%



  150%



  100%



   50%



    0%



   -50%
      FY 1997    FY 1998              FY 1999        FY 2000          FY 2001           FY 2002          FY 2003           FY 2004     FY 2005        FY 2006

  Source: TIGTA analysis of Examination Table 37.

Figure 24. Number of Forms 1040 Examined Face-to-Face or Through Correspondence.
The total number of face-to-face examinations of individuals increased by almost 19 percent, and
those conducted through correspondence increased by just over 3 percent in FY 2006. A much
greater percentage of change occurred for individuals with income of over $100,000; those
increased just over 34 percent for face-to-face examinations and 9 percent for correspondence
examinations.
  1,000,000

    900,000
                                                                                                                                       Face-to-Face -
                                                                                                                                       Under $100,000
    800,000

    700,000

    600,000                                                                                                                            Correspondence -
                                                                                                                                       Under $100,000
    500,000

    400,000
                                                                                                                                       Face-to-Face -
    300,000
                                                                                                                                       $100,000 & Over
    200,000

    100,000
                                                                                                                                       Correspondence -
          0                                                                                                                            $100,000 and Over
                97          98          99          00          01          02          03          04          05          06
              19          19          19          20          20          20          20          20          20          20
         FY          FY          FY          FY          FY          FY          FY          FY          FY          FY

  Source: TIGTA analysis of Examination Table 37 and IRS Data Book.

                                                                                                                                                       Page 32
                     Trends in Compliance Activities Through Fiscal Year 2006




Figure 25. Percentage of Forms 1040 Examined Face-to-Face or Through Correspondence.
During FY 2006, the coverage rate for face-to-face and correspondence examinations of
nonbusiness and business individual income tax returns increased for most of the income
categories but decreased for individual income tax returns with farm income. However, the rate
increased substantially for business Forms 1040 with high income, resulting in the increase in
face-to-face examinations of high-income individual taxpayers overall.
                Face-to-Face - Income Under $100,000            Face-to-Face - Income $100,000 & Over
                Correspondence - Income Under $100,000          Correspondence - Income $100,000 & Over
  2.00%
  1.80%
  1.60%
  1.40%
  1.20%
  1.00%
  0.80%
  0.60%
  0.40%
  0.20%
  0.00%
      FY 1997   FY 1998    FY 1999    FY 2000    FY 2001   FY 2002   FY 2003   FY 2004    FY 2005      FY 2006

  Source: TIGTA analysis of Examination Table 37.

Figure 26. Number of Forms 1040 Examined by Correspondence Examination (Excluding
Those With Farm Income). During FY 2006, the number of examinations conducted by
correspondence increased for two of the four categories. The fluctuation in examinations of
nonbusiness tax returns with income under $25,000 for FYs 1998 to 2001 was largely based on
fluctuations in the number of Earned Income Tax Credit examinations.
                     All Nonbusiness < $25,000                       All Nonbusiness $25,000 or More
                     All Business < $25,000                          All Business $25,000 or More
  600,000


  500,000


  400,000


  300,000


  200,000


  100,000


       0
      FY 1997    FY 1998    FY 1999   FY 2000    FY 2001   FY 2002   FY 2003   FY 2004    FY 2005      FY 2006

  Source: TIGTA analysis of IRS Data Book.

                                                                                                        Page 33
                                  Trends in Compliance Activities Through Fiscal Year 2006




Figure 27. Number of Forms 1040 Examined by Field Offices (Excluding Those With
Farm Income). Field offices conduct a combination of face-to-face and correspondence
examinations. During the year, the number of examinations conducted by field offices increased
for all categories of tax returns except for businesses with income between $25,000 and
$100,000.
  275,000
                                                                                                                                    All Non-Business
  250,000
                                                                                                                                    < $25,000
  225,000

  200,000                                                                                                                           All Nonbusiness
                                                                                                                                    $25,000 - $99,999
  175,000

  150,000                                                                                                                           All Nonbusiness
                                                                                                                                    $100,000 & Over
  125,000

  100,000                                                                                                                           All Business
                                                                                                                                    < $25,000
   75,000

   50,000                                                                                                                           All Business
                                                                                                                                    $25,000 - $99,999
   25,000

            0                                                                                                                       All Business
          997           98          99          00          01          02          03          04          05          06          $100,000 & Over
         1            19          19          20          20          20          20          20          20          20
    FY           FY          FY          FY          FY          FY          FY          FY          FY          FY

  Source: TIGTA analysis of IRS Data Book.

Figure 28. Percentage of Forms 1040 Examined. This chart shows a comparison of
examination rates (total correspondence and face-to-face) for tax returns with business or farm
income and those with incomes of under $100,000 and $100,000 and over without business or
farm income. During FY 2006, the percentage examined decreased only for Forms 1040 with
farm income. The other categories showed slight increases.
                Form 1040 Under $100,000 No Schedule C or F                                     Form 1040 $100,000 & Over No Schedule C or F
                Form 1040 With Schedule C Business Income                                       Form 1040 With Schedule F Farm Income
  3.5%

  3.0%

  2.5%

  2.0%

  1.5%

  1.0%

  0.5%

  0.0%
     FY 1997           FY 1998           FY 1999      FY 2000           FY 2001          FY 2002          FY 2003        FY 2004   FY 2005    FY 2006

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                                   Page 34
                                              Trends in Compliance Activities Through Fiscal Year 2006




Figure 29. Percentage Examined – Forms 1040 With No Business or Farm Income. The
percentage of Forms 1040 examined increased for all income categories except the simpler
Forms with income under $25,000 during the year. The increases were largely due to a rise in
the percentage of Forms 1040 examined by field employees.
                                   Form 1040A Under $25,000             Form 1040 Under $25,000              Form 1040 $25,000-49,999
                                   Form 1040 $50,000-99,999             Form 1040 $100,000 & Over
   2.5%



   2.0%



   1.5%



   1.0%



   0.5%



   0.0%
      FY 1997                            FY 1998   FY 1999    FY 2000    FY 2001    FY 2002       FY 2003   FY 2004    FY 2005    FY 2006

  Source: TIGTA analysis of IRS Data Book.

Figure 30. Examination Coverage of Nonbusiness Forms 1040 – Under $100,000. The
number of nonbusiness tax returns filed with income of under $100,000 has decreased slightly in
each of the last 3 fiscal years. During FY 2006, the examination coverage rate for these returns
increased by almost 3 percent. This increase was entirely due to an increase in field
examinations.
                                                   Returns Filed                                       Returns Examined
                               120,000                                                                                           2,400


                               100,000                                                                                           2,000
                                                                                                                                         Returns Examined (Thousands)
   Returns Filed (Thousands)




                                80,000                                                                                           1,600


                                60,000                                                                                           1,200


                                40,000                                                                                           800


                                20,000                                                                                           400


                                    0                                                                           0
                                   FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                   Page 35
                                                       Trends in Compliance Activities Through Fiscal Year 2006




Figure 31. Examination Coverage of Nonbusiness Forms 1040 – $100,000 and Over. The
number of nonbusiness tax returns filed with income of $100,000 and over increased in
FYs 2005 and 2006 after being relatively constant since FY 2002. During FY 2006, the
examination coverage rate for these returns increased by just over 8 percent after decreasing by
just over 14 percent in FY 2005. Almost 59 percent of the increase in the number of
examinations in this category was due to those conducted by field employees.
                                                            Returns Filed                                     Returns Examined
                                       14,000                                                                                             280




                                                                                                                                                 Returns Examined(Thousands)
                                       12,000                                                                                             240
   Returns Filed(Thousands)




                                       10,000                                                                                             200


                                        8,000                                                                                             160


                                        6,000                                                                                             120


                                        4,000                                                                                             80


                                        2,000                                                                                             40


                                           0                                                                                               0
                                          FY 1997    FY 1998   FY 1999    FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006

  Source: TIGTA analysis of IRS Data Book.

Figure 32. Examination Coverage of Forms 1040 With Business Income (Excluding
Farms). The total number of individual income tax returns filed with business income continued
to increase, as did the percentage examined in each of the categories except those with total gross
receipts of from $25,000 to $99,999. Campus employees accounted for a larger portion of the
increase in examination of returns for which total gross receipts were under $25,000; field
employees accounted for a larger portion of the increase in examination of returns for which total
gross receipts were $100,000 and over.
                                                    Sch C Returns Filed                                  TGR Under $25,000 Examined
                                                    TGR $25,000-$99,999 Examined                         TGR $100,000 & Over Examined
                                       10,000                                                                                            5.0%
           Returns Filed (Thousands)




                                        8,000                                                                                            4.0%
                                                                                                                                                Percentage Examined




                                        6,000                                                                                            3.0%


                                        4,000                                                                                            2.0%


                                        2,000                                                                                            1.0%


                                           0                                                                           0.0%
                                          FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006

  Source: TIGTA analysis of IRS Data Book. TGR = total gross receipts. Sch C = Form 1040 Schedule C.

                                                                                                                                            Page 36
                                               Trends in Compliance Activities Through Fiscal Year 2006




Figure 33. Examination Coverage of Forms 1040 With Farm Income. The number of
Forms 1040 filed with farm income decreased in FY 2006, as did the number of examinations of
these returns by both field and campus employees. The net effect was a 30 percent decrease in
examination coverage in this category.
                                                     Returns Filed                                  Returns Examined
                                800                                                                                               40

                                700                                                                                               35




                                                                                                                                        Returns Examined (Thousands)
    Returns Filed (Thousands)




                                600                                                                                               30

                                500                                                                                               25

                                400                                                                                               20

                                300                                                                                               15

                                200                                                                                               10

                                100                                                                                               5

                                  0                                                                                                0
                                 FY 1997   FY 1998   FY 1999    FY 2000   FY 2001   FY 2002    FY 2003    FY 2004   FY 2005   FY 2006

  Source: TIGTA analysis of IRS Data Book.

Figure 34. Examination Coverage of Corporate Income Tax Returns – Percentage Change
From FY 1997. Overall, the number of corporate tax returns filed (excluding U.S. Income Tax
Return for an S Corporation (Form 1120S) and U.S. Income Tax Return for a Foreign
Corporation (Form 1120-F)) continued to decrease during FY 2006. The percentage of tax
returns examined increased for most of the small- to medium-size corporate tax return categories
but decreased for the 3 largest corporate tax return categories (those with assets of $50 million
and over). Overall, 1 in 80 corporate tax returns was examined.
                                                       Returns Filed                                 Returns Examined
                                0%

         -10%

         -20%

         -30%

         -40%

         -50%

         -60%

         -70%

         -80%

         -90%

   -100%
       FY 1997                             FY 1998   FY 1999    FY 2000   FY 2001    FY 2002    FY 2003     FY 2004    FY 2005   FY 2006

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                   Page 37
                         Trends in Compliance Activities Through Fiscal Year 2006




Figure 35. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets of Under $10 Million. The overall examination coverage rate for corporate tax returns
with no balance sheet or assets of under $10 million increased by less than 1 percent during the
year.
   18%
                                                                                                           Assets
   16%                                                                                                     $5M <
                                                                                                           $10M

   14%
                                                                                                           Assets
                                                                                                           $1M <
   12%                                                                                                     $5M

   10%                                                                                                     Assets
                                                                                                           $250,000
    8%                                                                                                     < $1M


    6%                                                                                                     Assets
                                                                                                           Under
                                                                                                           $250,000
    4%
                                                                                                           No
    2%                                                                                                     Balance
                                                                                                           Sheet
    0%
    FY 1997    FY 1998   FY 1999    FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006

  Source: TIGTA analysis of IRS Data Book.

Figure 36. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets of $10 Million and Over. During FY 2006, the overall examination coverage rate for
corporate tax returns with assets of $10 million and over decreased by slightly over 7 percent.
However, the rate for those returns with assets of $250 million and over decreased 20 percent.
   50%
                                                                                                           Assets
   45%
                                                                                                           $250M &
                                                                                                           Over
   40%

   35%
                                                                                                           Assets
                                                                                                           $100M <
   30%
                                                                                                           $250M
   25%
                                                                                                           Assets
   20%
                                                                                                           $50M <
                                                                                                           $100M
   15%

   10%
                                                                                                           Assets
                                                                                                           $10M <
    5%                                                                                                     $50M

    0%
     FY 1997   FY 1998    FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005    FY 2006

  Source: TIGTA analysis of IRS Data Book.

                                                                                                              Page 38
                                                 Trends in Compliance Activities Through Fiscal Year 2006




Figure 37. Examination Coverage of Corporations With Assets of Under $10 Million. The
number of corporate tax returns filed with assets of under $10 million dropped by almost
1 percent during the year, while the number of tax returns examined was unchanged.
                                                        Returns Filed                                    Returns Examined
                               3,000                                                                                                 150


                               2,500                                                                                                 125




                                                                                                                                            Returns Examined (Thousands)
   Returns Filed (Thousands)




                               2,000                                                                                                 100


                               1,500                                                                                                 75


                               1,000                                                                                                 50


                                500                                                                                                  25


                                     0                                                                                                0
                                    FY 1997   FY 1998    FY 1999    FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006

  Source: TIGTA analysis of IRS Data Book.

Figure 38. Examination Coverage of Corporations With Assets of $10 Million and Over.
During FY 2006, the number of corporate tax returns filed with assets of $10 million and over
increased by just over 5 percent, while the number of returns examined decreased by just over
2 percent.
                                                        Returns Filed                                    Returns Examined
                               70                                                                                                     35


                               60                                                                                                     30
                                                                                                                                           Returns Examined (Thousands)
   Returns Filed (Thousands)




                               50                                                                                                     25


                               40                                                                                                     20


                               30                                                                                                     15


                               20                                                                                                     10


                               10                                                                                                     5


                                0                                                                                                     0
                               FY 1997    FY 1998       FY 1999    FY 2000    FY 2001    FY 2002   FY 2003   FY 2004   FY 2005   FY 2006

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                      Page 39
                                             Trends in Compliance Activities Through Fiscal Year 2006




Figure 39. Examination Coverage of Forms 1120S – Percentage Change From FY 1997.
After decreasing each year since FY 1998, the percentage of Forms 1120S examined increased
98 percent during FYs 2005 and 2006. The increase can be partly attributed to examinations of
Forms 1120S as part of an ongoing National Research Project studying tax compliance.
                                                      Returns Filed                               Returns Examined
     80%

     60%

     40%

     20%

                      0%

  -20%

  -40%

  -60%

  -80%
     FY 1997                          FY 1998       FY 1999    FY 2000   FY 2001   FY 2002    FY 2003    FY 2004     FY 2005    FY 2006

  Source: TIGTA analysis of IRS Data Book.

Figure 40. Examination Coverage of Forms 1120S. The number of Forms 1120S filed has
increased at an average rate of nearly 160,000 per year since FY 1997, to just over 3.7 million in
FY 2006. While the number of examinations increased the last 2 years, only about 1 out of every
266 Forms 1120S was examined.
                                                    Returns Filed                                  Returns Examined
                              5,000                                                                                              50
                                                                                                                                       Returns Examined (Thousands)

                              4,000                                                                                              40
  Returns Filed (Thousands)




                              3,000                                                                                              30



                              2,000                                                                                              20



                              1,000                                                                                              10



                                 0                                                                                                0
                                FY 1997   FY 1998    FY 1999   FY 2000   FY 2001   FY 2002   FY 2003    FY 2004    FY 2005   FY 2006

  Source: IRS Data Book.

                                                                                                                                 Page 40
                                               Trends in Compliance Activities Through Fiscal Year 2006




Figure 41. Examination Coverage of Partnership Income Tax Returns. The number of
partnership tax returns filed has increased at an average rate of nearly 120,000 per year since
FY 1997, to just over 2.7 million in FY 2006. The number of returns examined increased by
almost 15 percent this year, but only about 1 out of every 279 partnership returns was examined.
                                                      Returns Filed                                   Returns Examined
                               3,000                                                                                               15




                                                                                                                                           Returns Examined (Thousands)
                               2,500                                                                                               13
   Returns Filed (Thousands)




                               2,000                                                                                               10


                               1,500                                                                                               8


                               1,000                                                                                               5


                                 500                                                                                               3


                                   0                                                                                                0
                                  FY 1997   FY 1998    FY 1999   FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005    FY 2006

  Source: IRS Data Book.

Figure 42. Examination Coverage of Fiduciary Income Tax Returns. During FY 2006, the
number of income tax returns filed by estates and trusts decreased slightly, but the number of tax
returns examined decreased by just over 44 percent. Only about 1 out of every 1,008 fiduciary
income tax returns was examined.
                                                      Returns Filed                                   Returns Examined
                               4,000                                                                                                   10


                                                                                                                                                 Returns Examined (Thousands)
   Returns Filed (Thousands)




                               3,000                                                                                                   8




                               2,000                                                                                                   6




                               1,000                                                                                                   4




                                  0                                                                                                  2
                                 FY 1997    FY 1998    FY 1999    FY 2000   FY 2001   FY 2002   FY 2003   FY 2004    FY 2005    FY 2006

  Source: IRS Data Book.


                                                                                                                                    Page 41
                                              Trends in Compliance Activities Through Fiscal Year 2006




Figure 43. Examination Coverage of Employment Tax Returns. The number of
employment tax returns filed increased by almost 2 percent this year, but the number of tax
returns examined increased by just over 23 percent. About 1 out of every 746 employment tax
returns was examined.
                                                    Returns Filed                                 Returns Examined
                               35.0                                                                                           80


                               30.0                                                                                           70




                                                                                                                                    Returns Examined (Thousands)
    Returns Filed (Millions)




                               25.0                                                                                           60


                               20.0                                                                                           50


                               15.0                                                                                           40


                               10.0                                                                                           30


                                5.0                                                                                           20


                                0.0                                                                                            10
                                FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006

  Source: IRS Data Book.

Figure 44. Examination Coverage of Excise Tax Returns. The number of excise tax returns
filed and examined remained relatively steady, increasing by less than 1 percent each during
FY 2006.
                                                    Returns Filed                                 Returns Examined
                               900                                                                                             45

                               800                                                                                             40
                                                                                                                                        Returns Examined (Thousands)



                               700                                                                                             35
   Returns Filed (Thousands)




                               600                                                                                             30

                               500                                                                                             25

                               400                                                                                             20

                               300                                                                                             15

                               200                                                                                             10

                               100                                                                                             5

                                 0                                                                                             0
                                FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006

  Source: IRS Data Book.

                                                                                                                               Page 42
                                                  Trends in Compliance Activities Through Fiscal Year 2006




Figure 45. Examination Coverage of Estate Tax Returns. During FY 2006, the number of
estate tax returns filed decreased by 26 percent, and the number of returns examined decreased
by almost 13 percent. About 1 out of every 10 estate tax returns was examined.
                                                        Returns Filed                                     Returns Examined
                                   140                                                                                              70


                                   120                                                                                              60




                                                                                                                                           Returns Examined (Thousands)
       Returns Filed (Thousands)




                                   100                                                                                              50


                                    80                                                                                              40


                                    60                                                                                              30


                                    40                                                                                              20


                                    20                                                                                              10


                                     0                                                                                               0
                                    FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003     FY 2004   FY 2005   FY 2006

  Source: IRS Data Book.

Figure 46. Examination Coverage of Gift Tax Returns. The number of gift tax returns filed
increased by just over 1 percent this year, but the number of returns examined decreased by over
3 percent.
                                                        Returns Filed                                     Returns Examined
                                   400                                                                                               3.5

                                   350                                                                                               3.3                Returns Examined (Thousands)
   Returns Filed (Thousands)




                                   300                                                                                               3.0

                                   250                                                                                               2.8

                                   200                                                                                               2.5

                                   150                                                                                               2.3

                                   100                                                                                               2.0

                                    50                                                                                               1.8

                                    0                                                                                                1.5
                                   FY 1997    FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003     FY 2004   FY 2005   FY 2006

  Source: IRS Data Book.

                                                                                                                                     Page 43
                                 Trends in Compliance Activities Through Fiscal Year 2006




Figure 47. Other Compliance Contacts on Forms 1040. The number of contacts for math
error cases was virtually unchanged from FY 2005, while underreporter and Automated
Substitute for Return system46 cases increased. The spike in math error cases for FY 2002 was
the result of taxpayer confusion over the Rate Reduction Credit. Much of the spike in FY 2004
was due to Child Tax Credit issues.
                   14,000,000



                   12,000,000



                   10,000,000



                    8,000,000



                    6,000,000



                    4,000,000



                    2,000,000



                           0
                                 FY 1997    FY 1998       FY 1999    FY 2000    FY 2001      FY 2002     FY 2003     FY 2004      FY 2005     FY 2006

                         FY 1997      FY 1998         FY 1999       FY 2000       FY 2001      FY 2002           FY 2003       FY 2004       FY 2005      FY 2006
      Math Error        5,983,944     5,668,906     6,552,290       5,751,462    6,082,967    13,315,765      4,024,981        7,342,484     3,163,794    3,159,077
      Underreporter      931,354      1,726,098     1,770,695       1,353,545    1,161,901     1,491,139      1,561,068        1,948,363     2,837,149    3,209,000
      ASFR               392,598       426,495        584,142       332,427       333,770       242,637          335,032       326,407       820,845      1,253,000

     Source: IRS Data Book. ASFR = Automated Substitute for Return system.

Figure 48. Other Compliance Contacts – Percentage of Form 1040 Coverage. The level of
coverage for math error cases was virtually unchanged from FY 2005, while it increased for
underreporter and Automated Substitute for Return system cases. The math error aberrations in
FYs 2002 and 2004 are explained in Figure 47.
                                FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY2003 FY 2004 FY 2005 FY 2006

     Math Error                 5,983,944   5,668,906      6,552,290    5,751,462     6,082,967    13,315,765     4,024,981 7,342,484         3,163,794    3,159,077
       Coverage Rate                4.97%         4.63%         5.25%       4.53%         4.70%         10.22%       3.08%          5.59%         2.38%       2.36%

     Underreporter                931,354   1,726,098      1,770,695    1,353,545      1,161,901    1,491,139      1,561,068     1,948,363    2,837,149   3,209,000
       Coverage Rate                0.79%         1.43%         1.44%         1.08%       0.91%           1.15%       1.20%          1.49%        2.16%       2.42%

     ASFR                        392,598     426,495         584,142      332,427      333,770         242,637      335,032       326,407       820,845    1,253,000
       Coverage Rate                0.33%         0.35%         0.48%       0.27%         0.26%          0.19%       0.26%          0.25%         0.63%       0.94%

     Source: TIGTA analysis of IRS Data Book. ASFR = Automated Substitute for Return system.


46
  The IRS adjusted how these cases are captured for FY 2006. We used revised numbers for FYs 2003
through 2005 to be consistent with FY 2006 and FYs 1997 through 2002.
                                                                                                                                                            Page 44
                         Trends in Compliance Activities Through Fiscal Year 2006




  Figure 49. Numbers and Percentages of Forms 1040 Examined. This chart shows the
  numbers and percentages of examination coverage.

                      FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005     FY 2006

 Forms 1040A –
 < $25,000
  Returns Examined    659,094   515,015   600,949   256,650   357,954   289,136   182,222   168,887   170,317     159,561
   Coverage Rate       1.44%     1.14%     1.36%     0.60%     0.86%     0.71%     0.51%     0.50%     0.52%       0.50%

 Forms 1040 –
 Nonbusiness
  Returns Examined
  < $25,000           157,978   104,050    76,215    51,567    55,624    90,781   197,005   245,470   292,033     302,168
    Coverage Rate      1.21%     0.81%     0.58%     0.37%     0.40%     0.64%     1.09%     1.26%     1.48%       1.49%
  Returns Examined
  $25,000 &
  < $50,000           196,489   165,168   103,340    63,742    67,109    71,966    94,825   135,041   185,965     191,150
    Coverage Rate      0.70%     0.58%     0.36%     0.21%     0.22%     0.23%     0.30%     0.43%     0.60%       0.62%
  Returns Examined
  $50,000 &
  < $100,000          140,330   121,384    77,698    51,954    53,433    69,620   105,400   113,944   145,641     163,711
    Coverage Rate      0.77%     0.62%     0.37%     0.23%     0.23%     0.28%     0.41%     0.44%     0.57%       0.62%
  Returns Examined
  $100,000 and over   119,575   100,079    80,038    68,616    64,259    80,483   106,565   151,969   138,085     166,839
    Coverage Rate      2.27%     1.66%     1.14%     0.84%     0.69%     0.75%     0.98%     1.39%     1.19%       1.29%

 Forms 1040 –
 Schedule C
  Returns Examined
  < $25,000            78,553    60,023    68,450    61,695    69,332    67,876    81,541    92,855   117,999     127,603
    Coverage Rate      3.19%     2.37%     2.69%     2.43%     2.72%     2.67%     3.00%     3.15%     3.68%       3.78%
  Returns Examined
  $25,000 &
  < $100,000           80,861    58,877    42,391    31,226    34,650    40,530    46,927    53,477    82,542      80,792
    Coverage Rate      2.57%     1.82%     1.30%     0.93%     1.02%     1.18%     1.33%     1.47%     2.21%       2.09%
  Returns Examined
  $100,000 and over    73,049    59,728    44,945    28,781    24,080    29,848    30,738    39,124    78,497      89,231
    Coverage Rate      4.13%     3.25%     2.40%     1.48%     1.20%     1.45%     1.47%     1.86%     3.65%       3.90%

 Forms 1040 –
 Schedule F
  Returns Examined
  < $100,000            5,868     3,949     2,832     1,384     2,104     1,709     1,997     3,104     1,603       1,348
    Coverage Rate      1.28%     0.93%     0.68%     0.35%     0.55%     0.47%     0.57%     0.91%     0.48%       0.42%
  Returns Examined
  $100,000 and over     7,446     4,507     3,415     2,150     3,211     1,932     2,076     4,003     2,626       1,547
    Coverage Rate      2.75%     1.63%     1.23%     0.80%     1.18%     0.72%     0.78%     1.61%     1.01%       0.58%
Source: TIGTA analysis of IRS Data Book.




                                                                                                                Page 45
                           Trends in Compliance Activities Through Fiscal Year 2006




  Figure 50. Numbers and Percentages of Business Tax Returns Examined. This chart shows
  the numbers and percentages of examination coverage.
                        FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005    FY 2006
 Corporations –
 Assets < $10 Million    56,323    41,818    28,268    18,623    14,332    14,655    13,608     7,294    17,858     17,849

   Coverage Rate         2.22%     1.67%     1.16%     0.77%     0.60%     0.63%     0.58%     0.32%     0.79%       0.80%
 Corporations –
 Assets $10 Million
 and Over                12,972    11,830    10,537     9,212     8,718     8,443     7,125     9,523    10,829     10,578

   Coverage Rate        24.29%    21.43%    19.05%    16.30%    15.08%    14.17%    12.08%    16.74%    20.02%      18.60%

 Form 1120S              23,898    25,522    21,169    15,200    12,437    11,646     9,695     6,402    10,417     13,970

   Coverage Rate         1.04%     1.04%     0.81%     0.55%     0.43%     0.39%     0.30%     0.19%     0.30%       0.38%

 Partnership              9,811    10,082     7,991     6,539     5,070     5,543     7,871     6,226     8,489      9,752

   Coverage Rate         0.59%     0.58%     0.43%     0.33%     0.25%     0.26%     0.35%     0.26%     0.33%       0.36%

 Fiduciary                5,753     6,890     6,382     7,318     7,070     7,206     6,068     4,438     6,591      3,669

   Coverage Rate         0.18%     0.21%     0.19%     0.22%     0.20%     0.18%     0.17%     0.12%     0.18%       0.10%

 Employment              60,799    40,595    28,898    20,074    17,163    17,252    16,408    17,698    33,748     41,646

   Coverage Rate         0.21%     0.14%     0.10%     0.07%     0.06%     0.06%     0.06%     0.06%     0.11%       0.13%

 Excise                  24,701    19,858    12,562    10,294     8,169     8,426     8,756    12,560    16,563     16,678

   Coverage Rate         3.14%     2.48%     1.53%     1.25%     0.96%     1.03%     1.05%     1.49%     1.98%       1.99%

 Estate                  11,686    10,451     9,319     8,024     7,707     7,151     7,265     6,455     6,081      5,299

   Coverage Rate        12.90%    10.22%     8.46%     6.89%     6.24%     5.84%     6.38%     7.41%     8.20%       9.66%

 Gift                     2,085     2,010     2,369     2,097     2,005     1,899     1,855     1,979     2,125      2,051

   Coverage Rate         0.90%     0.79%     0.91%     0.72%     0.65%     0.63%     0.66%     0.69%     0.81%       0.77%
Source: TIGTA analysis of IRS Data Book




                                                                                                                  Page 46
                  Trends in Compliance Activities Through Fiscal Year 2006




                                                                           Appendix VI

         Prior Treasury Inspector General for Tax
        Administration Compliance Trends Reports

Management Advisory Report: Evaluation of Reduction in the Internal Revenue Service’s
Compliance Activities (Reference Number 2000-30-075, dated May 2000).
Management Advisory Report: Tax Return Filing and Examination Statistics (Reference
Number 2001-30-175, dated September 2001).
Management Advisory Report: Analysis of Trends in Compliance Activities Through Fiscal
Year 2001 (Reference Number 2002-30-184, dated September 2002).
Trends in Compliance Activities Through Fiscal Year 2002 (Reference Number 2003-30-078,
dated March 2003).
Trends in Compliance Activities Through Fiscal Year 2003 (Reference Number 2004-30-083,
dated April 2004).
Trends in Compliance Activities Through Fiscal Year 2004 (Reference Number 2005-30-055,
dated March 2005).
Trends in Compliance Activities Through Fiscal Year 2005 (Reference Number 2006-30-055,
dated March 2006).




                                                                                      Page 47
